October 6, 2021
VIA ELECTRONIC FILING
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
sharris@supremecourt.gov
Re:

Postmates, LLC, fka Postmates, Inc. v. Wendy Santana
Case No. 21-420

Dear Clerk Harris:
Pursuant to Supreme Court Rule 30.4, Respondent Wendy Santana (“Respondent”)
respectfully moves for an extension of time for filing her response to Petitioner Postmates,
LLC, fka Postmates, Inc.’s (“Postmates”) Petition for Writ of Certiorari until December 1,
2021. The response is currently due on October 18, 2021.
The parties in this case have reached a class action settlement which would resolve
all claims in this case, which has been filed in San Francisco Superior Court. See Postmates
Classification Cases, Case No. CJC-20-005068 (San Francisco Superior Court). The
settlement was preliminarily approved by the Court on August 12, 2021. The final
approval hearing is scheduled for November 3, 2021. Assuming that the Court grants final
approval, this case will be moot.
Accordingly, in the interest of judicial economy, counsel for Respondent
respectfully submit that her response deadline should be extended until December 1, 2021,
after the final approval hearing.
PARRIS LAW FIRM

Kitty K. Szeto
Counsel for Respondent Wendy Santana
cc:

Theane D. Evangelis (Counsel of Record for Petitioner)

